Henry E. Gossage
9421 Johnson Pt Lp NE
Olympia, WA 98516
(360) 951-7826
September 10, 2019
Mr. Baker
Mr. Scott Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
(202) 479-3038
Re: Henry Eugene Gossage v. Merit System
Protection Board
Case No. 19-143
Petitioner Henry Eugene Gossage, pro se veteran, brings to the
Court's attention, recent opinions from the court of appeals, as they relate
to this petition. These decisions were issued shortly or after filing of the pro
se veteran's petition for a writ of certiorari before judgment, and addresses
its impact on this pending petition. The Gossage v. MSPB decision conflicts
with recent holdings from the Federal, 5th, 8th, 9th, and 11th Circuit Courts.
Joseph v. MSPB, Federal Circuit 2018-2241 (June 7, 2019).
The Federal Circuit and MSPB held that it lacked jurisdiction,
because "OPM has not issued an initial or final decision" in the
matter. See Joseph v. Office of Pers. Mgmt., No. PH-0841-16-02284-1,
2016 WL 6837492 (MSPB Nov. 15, 2016).
Sharpe v. DOJ, Federal Circuit 2017-2356 (March 1, 2019).
The Federal Circuit held the MSPB abused its discretion in
excluding evidence, we vacate the MSPB's decision and remand for
further proceedings.
Hoffmann v. Pulido, 9th Circuit 2018-15661 (July 8, 2019).
We recognize that FRCP 60(b)(4) expressly allows for final
judgments to be declared void in some circumstances, including
certain limited situations in which the court lacked subject-matter
jurisdiction to enter the judgment in the first place. See Yanow v.
Weyerhaeuser S.S. Co., 274 F.2d 274, 278 n.7 (9th Cir. 1958). But the
scope of what constitutes a void judgment is narrowly circumscribed,
and judgments are deemed void only where the assertion of
jurisdiction is truly unsupported. Jones v. Giles, 741 F.2d 245, 4RECEIVED
(9th Cir. 1984); see also United Student Aid Funds, Inc. v. Espi osa
SFP 1 6 2019
559 U.S. 260, 271 (2010) ("[A] judgment is void because of a
jurisdictional defect [only in the] exceptional case in which the
that rendered judgment lacked even an 'arguable basis' for
jurisdiction.").

CORTtICE OF THE CLERK
SUPREME COURT U.S.

Hunt v. National Mortgage, 11th Circuit 2018-12348 (July 19, 2019).
To warrant relief under Rule 60(b)(2): the evidence must be
newly discovered since the trial; material; and the evidence must be
such that a new trial would probably produce a new result.
Rule 60(b)(3) allows a court to grant relief from a judgment for
fraud, misrepresentation, or misconduct by an opposing party. "To
prevail on a 60(b)(3) motion, the movant must prove by clear and
convincing evidence that an adverse party has obtained the verdict
through fraud, misrepresentation, or other misconduct." Cox Nuclear
Pharmacy, Inc. v. CTI, Inc., 478 F.3d 1303, 1314 (CAll 2007).
"Additionally, the moving party must show that the conduct
prevented the losing party from fully and fairly presenting his case or
defense."
Relief for fraud on the court under Rule 60(d)(3) is a narrow
doctrine and constitutes only that species of fraud that defiles, or
attempts to defile, the court itself, "or is a fraud perpetrated by
officers of the court so that the judicial machinery cannot perform in
the usual manner its impartial task of adjudging cases." see Travelers
Indem. V. Gore, 761 F.2d 1649, 1551 (CA1 1 1985).
A judgment is void under this rule 60(b)(4), "if the court that
rendered it lacked jurisdiction of the subject matter, or of the
parties, or if it acted in a manner inconsistent with due process of
law." Burke v. Smith, 252 F.3d 1260, 1263 (11th Cir. 2001).
Re: Veg Liquidation, Inc., 8th Circuit 2018-1786 (July 16, 2019).
"A finding of fraud on the court, however, "is justified only by
the most egregious misconduct directed to the court itself, such as
bribery of a judge or jury or fabrication of evidence by counsel."
Landscape Props., Inc. v. Vogel, 46 F.3d 1416, 1422 (CA8 1995)."
Lall v. Bank of New York, 5th Circuit 2018-10554 (August 13, 2019).
Therefore, "only the most egregious misconduct, such as
bribery of a judge or members of a jury, or the fabrication of evidence
by a party in which an attorney is implicated, will constitute a fraud
upon the court."
September 10, 2019

Respectfully submitted,

Henry E. Gossage
9421 Johnson Pt Lp NE
Olympia, WA 98516
(360) 951-7826
hegossage@gmail.com

